                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 113070046                                                                    Page 1 of 1



         This case was opened from an allegation that the complainant 1 had been retaliated against by his
         institution2 for reporting a misuse ofNSF award funds to the institution's auditor's office.

         Our investigation concluded that the underlying complaint of misuse of NSF award3 funds had
         been previously investigated and unsubstantiated by NSF OIG4 . It was also determined that our
         office did not have jurisdiction to investigate the retaliation claim.

         This case is closed with no further action taken.




NSF OIG Form 2 (11102)
